No.

 

 

IN THE

Supreme Court of the United States

DEVON DRIVE LIONVILLE, LP, et al.,

Petitioners,
v.
PARKE BANK, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,175 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 16, 2020.

 
